No. 19-197
In the

Supreme Court of the United States
__________________
LAVERN BEHM,
v.

Petitioner,

MONTANA-DAKOTA UTILITIES CO.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of North Dakota

__________________

REPLY BRIEF FOR PETITIONER
__________________

Lynn M. Boughey
Counsel of Record
Boughey Law Firm
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com

Counsel for Petitioner

October 24, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
REPLY BRIEF FOR PETITIONER . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
DISCUSSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Point 1 — The argument that the district court
didn’t reach the federal issue is a red herring.
There was no need to employ or raise federal law
before the district court because the district
court found in favor of Behm using state law
before being presented a request to dismiss on
federal grounds. Had the district court ruled
against Behm on his state law arguments and
not granted his motion to dismiss (following an
evidentiary hearing), the federal arguments
would have been made next through a second
motion to dismiss . . . . . . . . . . . . . . . . . . . . . . . . . 2
Point 2 — The federal issues were raised below.
This presentation occurred, when required and
necessary, before the North Dakota Supreme
Court. The first time Behm had the need to
raise the federal issues he did so — that is as a
secondary basis for affirming the district court’s
dismissal of the eminent domain case against
Behm. Moreover, The federal issues — public
use, necessity of taking, taking by a private
entity for the exclusive use of only one private
customer — involve the same facts and the exact
same principles that apply to state eminent
domain cases. Behm asked the North Dakota

ii
Supreme Court to affirm on the basis of the
federal law (in the event it did not affirm under
state law) and, incidentally, the very same
standards and issues apply as to both state and
federal law. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Point 3 – MDU’s attempt to assert cost as a
viable factor for the North Dakota Supreme
Court to reverse and for this Court to affirm the
appellate decision below is not only incorrect,
but also disingenuous . . . . . . . . . . . . . . . . . . . . . . 6
Point 4 — The North Dakota Supreme Court’s
decision to side-step Behm’s presentation of his
federal claim is nothing more than an attempt to
divest this Court of its jurisdiction . . . . . . . . . . . 7
Point 5 — A re-examination of Kelo is
appropriate in this case because both Kelo and
this case pertain to the essential due process
and taking requirements that apply and should
apply throughout the United States. The fact
that Kelo also involved economic development as
a basis for the taking does not change the fact
that application of these principles applies
equally well to this case. Moreover, the concerns
of Justice Thomas in his dissent in Kelo equally
apply to this case . . . . . . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
TABLE OF AUTHORITIES
CASES
Kelo v. City of New London, Connecticut,
545 U.S. 469 (2005). . . . . . . . . . . . . . . . . . . . . 9, 10
CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . 8, 9, 10, 11

1
REPLY BRIEF FOR PETITIONER
SUMMARY OF ARGUMENT
MDU’s primary argument in its response is that the
federal issues were not presented below. This is not the
case. The federal issues were indeed presented to the
North Dakota Supreme Court,1 which chose not to
consider the issues claiming they weren’t sufficiently
raised—even though Behm’s brief specifically
addressed the issues of necessity and public use (which
apply to both state and federal law) and explicitly
asserted that the federal issues were also being raised.
Nor is there any proper basis for MDU’s position
that this Court should not consider the case because
the federal issues were not addressed by the district
court. The fact that the district court never got to the
federal issues is irrelevant since it resolved the matter
under state law. If the district court had not ruled in
Behm’s favor under state law, then Behm would have
submitted another motion to dismiss raising the federal
issues. When it was appropriate and necessary to raise
the federal issues, Behm did so—as part of MDU’s
appeal to the state supreme court—and did so explicitly
in his cross appeal.

1

We note that Chief Justice VandeWalle did not participate in the
decision of the North Dakota Supreme Court. Unfortunately, the
Chief Justice recused himself on this particular case, apparently
due to a relative by marriage who works for MDU. Had he been
part of the decision-making process, it is quite possible that Chief
Justice VandeWalle would have convinced the other justices to
follow the state statute or the state constitution in regards to the
issues raised below.

2
DISCUSSION
Point 1 — The argument that the district
court didn’t reach the federal issue is a red
herring. There was no need to employ or
raise federal law before the district court
because the district court found in favor of
Behm using state law before being
presented a request to dismiss on federal
grounds. Had the district court ruled
against Behm on his state law arguments
and not granted his motion to dismiss
(following an evidentiary hearing), the
federal arguments would have been made
next through a second motion to dismiss.
As to whether the federal issues were raised before
the district court, Behm did not need to raise the
federal issues below because the district court found in
Behm’s favor and dismissed the action based on state
law – before Behm found it necessary to raise the
federal provisions.
It was not necessary to raise the federal issues in
regards to the motion for summary judgment before the
district court because if the decision was in favor of
Behm under state law, raising in the federal
constitutional provisions was unnecessary.
The transcript demonstrates that all of the essential
federal issues were raised at the trial itself. More
specifically, the issues of necessity, public taking, and
public use were presented to the district court, which
found that there was no necessity for public use to
justify the taking. The evidence received and the

3
arguments presented related to both state and federal
standards relating to eminent domain. In other words,
in presenting the evidence and the arguments to the
district court, the presentation inherently included not
only the state standards, but also the federal
standards. As such the analysis of the district court
equally applies to both state and federal requirements
for taking property through eminent domain.
It should be noted that had the district court
refused to rule in Behm’s favor via the state statutory
and constitutional provisions, then Behm would have
simply made the exact same motion – and discuss the
exact same facts and the exact same principles relating
to necessity of the taking and public use – requesting
that the district court then apply the federal
constitutional provisions.2 That did not become
necessary since the district court ruled in Behm’s favor.
Because the district court ruled in his favor right away
on state grounds, Behm did not have an opportunity –
or the need – to raise the federal issues before the
district court. But it is essential to note that the facts
received and the issues applied by the district court are
exactly the same facts and issues that apply to the
federal law and the proper application of the relevant
provisions of the United States Constitution. However,
2

This would have been easily done, and is the reason that the
initial motion did not refer to the federal constitutional provisions.
Had the district court ruled against Behm, then Behm would have
simply made the same motion applying federal law and asking the
Court to apply the federal provisions to the facts already received.
And if MDU had insisted on the Answer being so amended, then
that would have occurred too through Rule 15, which requires the
district court to freely grant such amendments.

4
once the matter went on appeal from MDU to the
North Dakota Supreme Court, Behm had every right to
assert before the North Dakota Supreme Court the
federal constitutional provisions in the event the North
Dakota Supreme Court did not affirm the appeal under
the state provisions, which he did by his cross appeal.
Point 2 — The federal issues were raised
below. This presentation occurred, when
required and necessary, before the North
Dakota Supreme Court. The first time
Behm had the need to raise the federal
issues he did so — that is as a secondary
basis for affirming the district court’s
dismissal of the eminent domain case
against Behm. Moreover, The federal issues
— public use, necessity of taking, taking by
a private entity for the exclusive use of
only one private customer — involve the
same facts and the exact same principles
that apply to state eminent domain cases.
Behm asked the North Dakota Supreme
Court to affirm on the basis of the federal
law (in the event it did not affirm under
state law) and, incidentally, the very same
standards and issues apply as to both state
and federal law.
MDU next asserts that the federal issue was not
presented to the North Dakota Supreme Court. MDU’s
Brief in Opposition at 1, 7-8. This also is incorrect.
When the matter was appealed to the North Dakota
Supreme Court, Behm raised the federal issue in
support of requesting that the North Dakota Supreme

5
Court affirm the decision of a lower court, initially on
state grounds—but if not, then on federal grounds.
Unfortunately the North Dakota Supreme Court
decided to sidestep the federal issues and assert that
the federal issues were not sufficiently presented.
However the federal issues were indeed presented, as
clearly indicated in MDU’s own brief where MDU
admits that the tenth issue presented to the North
Dakota Supreme Court indicated both the federal and
state violation of constitutional rights by the proposed
taking. MDU’s Brief in Opposition at 7.3

3

Mr. Behm’s Issue 10 is found on paragraph 11 of the brief to the
North Dakota Supreme Court, and discussion of that federal issue
that was indeed raised occurs on paragraph 41 of the brief to the
North Dakota Supreme Court:
¶41
This Court should apply the property rights of the
state and federal constitutions and conclude that the
taking proposed in this case would constitute an improper
taking in violation of the due process clause and general
property rights. Any taking of property should be
presumed as improper and the government (or its private
entity allowed to use the awesome powers of the
government) should be required to prove that the taking is
both necessary and for a legitimate public use. No
government entity or any of its selected minions should be
allowed to use any presumption or standard of proof to
continence a taking that is not first fully justified as
necessary and for a proper public use.”
MDU v. Behm, Brief to the North Dakota Supreme Court, 12-1318.

6
Point 3 – MDU’s attempt to assert cost as a
viable factor for the North Dakota Supreme
Court to reverse and for this Court to
affirm the appellate decision below is not
only incorrect, but also disingenuous.
MDU disingenuously asserts a possible price tag of
$1.2 million if it were forced to use one of the
alternatives proposed by Behm. Along with suggesting
continuing to use the existing propane tanks, Behm
proposed two ways in which MDU could service the
railroad by a pipeline—by using the railroad’s right-ofway, or simply using the public right-of-way by placing
the proposed pipeline alongside the public township
road,4 a mere ten feet to the west of where MDU
proposed to place it. And as to cost, the irony is that if
MDU decided to use the public right-of-way instead of
invading Behm’s land it will cost MDU less money
because MDU will not have to pay the landowner for
the easement.
But there is in an even easier solution that doesn’t
cost MDU any money at all: MDU can continue using
the propane tanks that are adjacent to the switches
and presently rest on the railroad right-of-way. It was

4

MDU notes in its Brief in Opposition at footnote 1 that the road
at issue is not paved and does not have a 19 foot easement way.
MDU is correct that the road is not paved and that the existing
easement is 33 feet on each side of the center line. The record does
indicate that the township is an improved gravel road in good
condition. T. at 48. Counsel for Behm apologizes for this reference
to the road being paved and the reference to a 19 feet easement;
the information previously provided relates to a different North
Dakota matter in which counsel is engaged.

7
for this reason that the district court found that there
was no necessity for placing the pipeline through Mr.
Behm’s property; the railroad already had a method of
providing fuel to the switches via the propane tanks.
The district court therefore properly found that MDU’s
decision to invade Mr. Behm’s land was not justified
and was merely a convenience to the railroad. It should
be further noted that the district court specifically
rejected MDU’s assertion that there might be some
future cost to MDU by using the available right of way
that runs on each side of the township road based on an
unsupported assertion by MDU that perhaps the
Township would someday decide to modify the existing
road. The district court properly found that this
assertion was unsupported by the facts and constituted
pure speculation.5
Point 4 — The North Dakota Supreme
Court’s decision to side-step Behm’s
presentation of his federal claim is nothing
more than an attempt to divest this Court
of its jurisdiction.
It is correct that the North Dakota Supreme Court
decided to sidestep the federal issue raised by

5

We note that MDU in its statement of the facts improperly
provides information and alleged facts which were not offered or
received at the evidentiary hearing, including reference to an
affidavit presented as to prior dispositive motions but not
presented at the evidentiary hearing. Thus the only evidence
before the district court in deciding this case was the evidence
received at the actual evidentiary hearing. By the same token, the
only evidence before this Court is that received at the evidentiary
hearing.

8
petitioner. However, this Court should reject the North
Dakota Supreme Court’s attempt to divest this court of
jurisdiction by its assertion that the issue is not
properly or sufficiently raised. The point of the matter
is that the petitioner did raise the federal issue to the
court below, in our view, it was sufficiently raised. In
addition, as noted above, the testimony and
requirements of the state taking is identical to the
federal taking, and all of those issues were properly
raised and submitted to the district court. And even
more significantly, the district court specifically found
a lack of necessity, a lack of public use, and considered
MDU’s attempted taking of the property as a mere
convenience to a private company.
The fact is that the North Dakota Supreme Court
intentionally side-stepped the federal issue – despite
the issue being raised and the exact same principles
applicable to the state issues applied equally to the
federal issues. In our view, this fact provides further
justification for this Court to grant certiorari and
prevent the state supreme court from ignoring
fundamental property rights and the basic
requirements of the Fifth Amendment Taking Clause,
particularly in situations where the state supreme
court is ignoring those rights and misconstruing its
own state statutes and state constitutional provisions
in the process.

9
Point 5 — A re-examination of Kelo is
appropriate in this case because both Kelo
and this case pertain to the essential due
process and taking requirements that
apply and should apply throughout the
United States. The fact that Kelo also
involved economic development as a basis
for the taking does not change the fact that
application of these principles applies
equally well to this case. Moreover, the
concerns of Justice Thomas in his dissent
in Kelo equally apply to this case.
MDU next attempts to assert that because Kelo v.
City of New London, Connecticut, 545 U.S. 469 (2005),
involved economic development, this case is not a
proper vehicle for determining whether Kelo should
stand. MDU’s Brief in Opposition at 1, 10-11. The issue
in Kelo was about much more than just economic
development. Kelo also involved the proper application
of the Takings Clause in reference to any taking, not
just a taking for economic development. The
application of the Fifth Amendment restrictions
relating to necessity, public use, and a taking by a
private entity applied in Kelo, and applies here.
MDU next asserts that this is just “a run-of-the-mill
eminent domain case,” and therefore is not worthy of
consideration for review. MDU’s Brief in Opposition at
11. The reason this case is so unique—and the reason
this case is an appropriate vehicle to determine the
proper application of the Fifth Amendment—is
precisely because this is not “a run-of-the-mill eminent
domain case” but instead a case in which the district

10
court specifically found a lack of necessity, a lack of
public use, appropriate alternatives to the taking, and
that the taking was a mere convenience to the private
entity. Each of these findings and conclusions should
have been upheld by the North Dakota Supreme Court.
It is now up to this Court to prevent this improper
taking and make the district court’s delineation of the
correct principles that relate to eminent domain the
law of the land.
CONCLUSION
This case provides a viable opportunity for this
Court to re-examine Kelo as well as the entire legal
protections that should apply to every eminent domain
case, in both state and federal courts. The trial court
received evidence and applied the principles relating to
eminent domain in both state and federal courts. The
federal issues were presented to the North Dakota
Supreme Court. The fact that the North Dakota
Supreme Court decided not to address the federal
issues does not divest this Court of jurisdiction. The
federal issues were raised, but the North Dakota
Supreme Court simply refused to address them. In fact,
this is a good reason this Court should grant the
petition for certiorari.
This case is indeed a proper vehicle to review and
reconsider Kelo v. New London because the Kelo case
involved much more than just economic development;
the Kelo case also deals with the issues of necessity,
public use, and the standards it should be employed in
reference to the Fifth Amendment Takings Clause. The
trier of fact in this case found that in regards to the
taking of the landowner’s property, there was no

11
necessity or public use, and that the taking by the
private entity was merely a convenience to a second
private entity. When a state refuses to apply its own
law to protect landowners from an improper taking by
the private use of the power of eminent domain, the
provisions of the Federal Constitution should prohibit
such a taking. This case is a perfect vehicle for
reasserting property rights that previously existed–and should be presently reinstated.
The federal issues were indeed raised before the
North Dakota Supreme Court. In reference to the
pending appeal, Behm had indeed specifically referred
to the federal constitution and specifically requested
that the North Dakota Supreme Court apply the same
principles in reference to both state and federal law—
in the event that court did not affirm the case under
the state constitutional provisions. Thus it is clear that
Behm had indeed placed the federal issues squarely
before of the North Dakota Supreme Court. Moreover,
the exact same principles that were applied by the
district court apply equally to the federal principles
that apply under the Fifth Amendment Taking Clause.
For all the reasons stated above, this Court should
conclude that the federal issues were raised below and
are properly before this Court.

12
Dated this 24th day of October, 2019.
Respectfully submitted,
Lynn M. Boughey
Counsel of Record
Boughey Law Firm
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com
Counsel for Petitioner

